NO.
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2021
ETHAN GUILLEN,
Petitioner,
vs.
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Petitioner Ethan Guillen, through his attorney, who was appointed pursuant to
the Criminal Justice Act, 18 U.S.C. ยง 3006A(c), respectfully moves this Court to grant
leave to continue to proceed in forma pauperis. In support of this motion, counsel
states:

1. The Federal Public Defender Organization for the District of New Mexico is
an entity organized pursuant to 18 U.S.C. ยง3006A(h)(2)(a).

2. Mr. Guillen was represented during criminal proceedings before the United
States District Court of New Mexico by counsel appointed pursuant to the Criminal
Justice Act on June 1, 2017.

3. Pursuant to 18 U.S.C. ยง 3006A(0), on February 24, 2020, the United States
Court of Appeals for the Tenth Circuit appointed the Federal Public Defender for the

District of New Mexico to represent Mr. Guillen in his appeal.
4, Mr. Guillen has indicated he wishes that his appointed Federal Public
Defender present this petition to this Court.

5. Mr. Guillen is presently serving the term of incarceration imposed by the
district court. As far as counsel is aware, Mr. Guillen continues to be indigent.

For these reasons, Petitioner Ethan Guillen moves this Court to grant leave for

him to proceed in forma pauperis before this Court.

 

Melissa Ayn Morris

Attorney for Petitioner
FEDERAL PUBLIC DEFENDER
111 Lomas NW, Suite 501
Albuquerque, NM 87102

(505) 346-2489
melissa_morris@fd.org
